No.

In the Supreme Court of the United States
DANIEL A. GROVER
Petitioner,
v
OFFICE OF PERSONNEL MANAGEMENT,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Federal Circuit
PETITION FORA WRIT OF CERTIORARI
Norman Jackman
Jackman & Roth LLP
7-2 Overbrook Hamlet Way
P.O. Box 1377
Lincoln, New Hampshire 03251
617-682-8049
norman.jackman@gmaiLcorn
September 16, 2019

1

QUESTION PRESENTED
Whether the deference standard regarding federal
agencies interpretation of their own regulations
must continue in the light of the admission by the
Office of Personnel Management (OPM) that if its
method of calculating Petitioner's average pay by
use of its own devised "deduction method" not
authorized by any statute ever passed by any
Congress in the entire history of the United States,
results in a figure that differs from actual average
pay received by Petitioner then OPM's figure would
be wrong.
The United States Court of Appeals decision in the
earlier phase of this case, Grover v. OPM, 828 Fed.
3d 1383 (2016), a precedential decision, so held,
and sent the case back to MSPB for calculation of
damages. But when the case was heard by the
Administrative Judge (AJ) OPM not only submitted
the discredited CFR, being 5 C.F.R. 575.209(d)
which differs from the statutes it purported to
interpret, being 5 U.S.C. 8331(4) and (5), but it
added 19 C.F.R 24.16(b)(14) which also differed
from the statutes it purported to interpret, being 5
U.S.C. 8331 (3) and 5 U.S.C. 5545(c)(2).
For the reasons cited herein, must deference be
given any longer to any regulation ever adopted by
OPM unless OPM proves that the regulation is
supported by the statute it pretends to interpret
properly.

11

TABLE OF CONTENTS
Page
QUESTION PRESENTED
TABLE OF AUTHORITIES

i
iii

OPINIONS BELOW

1

JURISDICTION

1

STATUTORY PROVISIONS INVOLVED

2

INTRODUCTION

2

STATEMENT OF THE CASE

3

Argument

3

OPM Failed to Follow the
Requirements of the Law

4

Our Headless Fourth Branch of
Government

6

II. CONCLUSION

7

111
AUTHORITIES
Page
Cases
Grover v. OPM 828 Fed. 3d 1383 (2016)...i, 7
Youngstown Sheet and Tube v. Sawyer 343
5
U.S. 579 633-34 (1952)
City of Arlington v. F.C.C. 133 S. Ct. 1863
(2013)
6
Statutes
5 U.S.C. 5545(c)(2)
5 U.S.C. 5724(a)
5 U.S.C. 8331(3)(4) and (5)
5 U.S.C. 8331(31)
5 U.S.C. 8339(a)

i,2,3
4
i,2,3,4
2
4

Code of Federal Regulations
5 C.F.R. 575.209(d)
19 C.F.R. 24.16(b)(14)

'i,2,3,4
i,2,3,4

United States Constitution
5th Amendment

6

Magna Carta

5

Federalist No. 47

7

iv
Miscellaneous
Administrative Conference of United
States, D. Lewis and J. Selin,
Sourcebook of United States
Executive Agencies II (2012)

4

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner, a retired former employee of the United
States Customs and Border Patrol, part of the
Department of Homeland Security, "the largest law
enforcement agency in the United States", was a
law enforcement officer (Appx24) who was
decorated for his work by his agency, (Appx25). He
retired in 2008 and has been trying to get
Respondent to correct his annuity for more than
ten years in the face of Respondent's adoption of
numerous CFR's which were not authorized by any
statute ever passed by any Congress in the entire
history of the United States.

OPINIONS BELOW
The opinion of the MSPB Administrative Judge is
reproduced in the appendix hereto (Appxl). The
decision, which did not contain an opinion, of the
Federal Circuit Court of Appeals was entered on
April 24, 2019 and reproduced in the appendix
hereto (Appx18).

JURISDICTION
Jurisdiction is by writ of certiorari to the United
States Court of Appeals for the federal Circuit.

2
STATUTORY PROVISIONS INVOLVED
5 U.S.C. 8331(3), (4) and (5) and 5 U.S.C. 5545(c)(2)
describe exactly how to calculate the amount of a
federal retirement annuity, and what must be
included in said calculation. 5 C.F.R. 575.209(d)
and 19 C.F.R. 24.16(b)(14) which differ from the
statutes they purport to interpret.

INTRODUCTION
The court below upheld the decision of the
MSPB Administrative Judge without issuing an
opinion, despite the fact that said opinion was
specifically based on two C.F.R's that have no
statutory authority and that contradict the very
statutes that they purport to interpret. The court
also ignored the fact that Respondent failed to
include a very substantial amount of Petitioner's
earnings based on its conclusion, unsupported by a
shred of evidence, and totally in contradiction of
evidence specifically accepted by the court below, in
Petitioner's position description, Appx24, GS-1895,
specifically included in Chapter 83, Civil Service
Retirement Section 8331 by definition at 5 U.S.C.
8331(31) which specifically includes an individual
(such as Petitioner) "who holds a position within
the GS-1895 job series...."

3
STATEMENT OF THE CASE
ARGUMENT
The Initial Decision is also wrong because it is
based on two OPM Regulations adopted without
statutory authority from any Congress in the
history of the United States, cited by the
Administrative Judge at page 8 of the Initial
Decision Appx8, and on the very same Regulation
ruled wrong in the earlier iteration of this case,
being the "deduction" method. These two are 5
C.F.R. 575.209(d) (stating relocation incentive not
included in base pay, thereby removing from
retirement calculations) and 19 C.F.R. 24.16(b)(14)
(explicitly excluding premium pay differential from
retirement benefits calculations) cited by the
Administrative Judge (AJ) at page 8 of the Initial
Decision as the reason for the decision that Daniel
Grover had no damages. But a diligent search
revealed that there never was any statute ever
passed by any Congress authorizing either of these
two Regulations both of which directly contradict
the actual controlling statutes passed by Congress
as follows.
5 U.S.C. 8331 (3) "basic pay" includes: (D):
with respect to a law enforcement officer,
premium pay under section 5545(c)(2)....
And 5 U.S.C. 5545(c)(2) specifically includes
"regularly scheduled overtime, night, and Sunday
duty, and for holiday duty all of which OPM
illegally argued were not included in basic pay

4
citing only its own illegal Regulations to the AJ. 5
U.S.C. 5724(a) provides for "Relocation expenses of
employees transferred or reemployed". 5 C.F.R.
575.209(d) states, in direct contradiction of the
statute, that:
A relocation incentive is not part of an
employee's rate of basic pay for any purpose
(emphasis in original).
In so doing, the AJ allowed the reduction in
Petitioner's High-Three (Appx 8, bottom
paragraph) and found that there were no damages.
But, $67,969.00 must be added back to the HighThree in order to calculate properly Mr. Grover's
annuity. Since the formula used to determine the
basic average of the High-Three requires that the
High-Three be divided by three in order to get the
figure from which the annuity is calculated, it
becomes clear that said Average was wrongfully
reduced by $22, 656.00. Therefore, the decision
below must be overturned.

OPM FAILED TO FOLLOW THE
REQUIREMENTS OF THE LAW
THE REAL DISPUTE
The Board made an erroneous interpretation of law
when it failed to implement the provisions of 5
U.S.C. 8331(4), 5 U.S.0 8339(a) and 19 C.F.R
24.16(b)(13) and, instead, allowed OPM to calculate
basic pay under one of its own regulations, cited

5
below, which was never authorized by any
Congress of the United States in its entire history.
5 C.F.R. 844.102 which defines basic pay differently
from the applicable statute says:
Basic pay means the pay an employee
receives that is subject to deductions under
FERS
Thus, OPM totally ignores the requirement of the
law cited above which the Federal Circuit reversed
in the earlier phase of this case, and substitutes
instead two more of its own regulations which have
never been authorized by any Congress in the
history of the United States, are not the law and
which must be overturned by this court. Clearly,
the provisions of a federal statute prevail over an
agency regulation that fails to comply with it. The
Executive Branch has no authority to change a law
passed by the Congress of the United States. It is
noteworthy, as we show here, that the Executive
Branch is under the law, not above it, that just
recently, the 800th anniversary of the signing of
the Magna Carta was celebrated, which, for the
first time, made the government under, not over
the law.
As Justice Douglas pointed out in his concurring
opinion in Youngstown Sheet and Tube Co v.
Sawyer, 343 U.S. 579, 633-34 (1952):
The power to recommend legislation, granted
to the President, serves only to emphasize
that it is his function to recommend, and

6
that it is the function of the Congress to
legislate. Article II, Section 3, also provides
that the President "shall take care that the
Laws be faithfully executed." But, as MR.
JUSTICE BLACK and MR. JUSTICE
FRANKFURTER point out, the power to
execute the laws starts and ends with the
laws Congress has enacted. ( emphasis
added)
What has been done to Petitioner in this case is
that he has been deprived of property without due
process of law in violation of the Fifth Amendment
of the Constitution of the United States by OPM's
failure to abide by the mandatory provisions of the
duly passed statutes of Congress.

OUR HEADLESS FOURTH BRANCH OF
GOVERNMENT
The collection of agencies housed outside the
traditional executive departments including the
Federal Communications Commission, is routinely
described as the "headless fourth branch of
Government" reflecting not only the scope of their
authority but their practical independence. See,
e.g., Administrative Conference of United States,
D. Lewis & J. Selin, Sourcebook of United States
Executive Agencies II (2012 ). Quoted with
approval by Chief Justice John Roberts in City of
Arlington v. FCC, 133 S. Ct. 1863, 1878 (2013).

7
Further, the very idea that OPM, as part of the
Executive Branch determines what the law means,
contrary to the actual law passed by the Congress,
without the judiciary stepping in to correct OPM's
behavior, is exactly described by one of the
principal authors of the Constitution who famously
wrote that the
accumulation of all powers, legislative,
executive, and judiciary, in the same
hands,... may justly be pronounced the very
definition of tyranny. The Federalist No.47,
p.324, (J. Cooke ed. 1961) (J. Madison)

II. CONCLUSION
This case turns well established assumptions on its
head. In the past, lawyers, judges, professors and
almost all members of the legal profession, always
assumed that the Code of Federal Regulations were
like laws, and they were treated as such. Now,
however, this case has shown that this assumption
is no longer true. The United States Court of
Appeals for the Federal Circuit in Grover v. OPM,
828 Fed. 3d held, after an admission in open court
by counsel, that where, as in the instant case, the
particular C.F.R. differs from the statute that it
purports to interpret (a situation that the entire
profession never questioned) then the C.F.R. fails.
Instead of accepting the validity of any particular
C.F.R. this case shows the necessity of always?
questioning the validity of any Regulation adopted
by OPM.

8
This case should be reversed and remanded to the
Federal Circuit for a proper calculation of
Respondent's annuity together with an Opinion
advising the legal profession regarding how to
handle OPM adopted C.F.R.'s in the future.

Respectfully submitted

Norman Jackman
Counsel of Record
JACKMAN & ROTH LLP
7-2 Overbrook Hamlet Way
P.O. Box 1377
Lincoln, New Hampshire 03251
617-682-8049
norman.jackman@gmail.com

